<html>
<title> - IS ACADEMIC FREEDOM THREATENED BY CHINA'S INFLUENCE ON U.S. UNIVERSITIES?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



         IS ACADEMIC FREEDOM THREATENED BY CHINA'S INFLUENCE ON U.S. 
                             UNIVERSITIES?

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 4, 2014

                               __________

                           Serial No. 113-230

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                       
                               ______
                                 

  
                                   ______

                         U.S. GOVERNMENT PRINTING OFFICE 

91-663 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana--resigned 5/
    20/14 
SEAN DUFFY, Wisconsin
    added 5/29/14 
CURT CLAWSON, Florida<greek-l>--
    added 7/9/14 noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Perry Link, Ph.D., chancellorial chair for innovative teaching, 
  University of California, Riverside............................     6
Thomas Cushman, Ph.D., Deffenbaugh de Hoyos Carlson chair in the 
  social sciences, Wellesley College.............................    15
Xia Yeliang, Ph.D., visiting fellow, Center for Global Liberty 
  and Prosperity, Cato Institute.................................    32
Sophie Richardson, Ph.D., China director, Human Rights Watch.....    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Perry Link, Ph.D.: Prepared statement............................     9
Thomas Cushman, Ph.D.: Prepared statement........................    18
Xia Yeliang, Ph.D.: Prepared statement...........................    35

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Letter from members of the faculty of New York 
  University.....................................................    58

 
      IS ACADEMIC FREEDOM THREATENED BY CHINA'S INFLUENCE ON U.S. 
                             UNIVERSITIES?

                              ----------                              


                       THURSDAY, DECEMBER 4, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and good 
afternoon to everybody.
    I welcome you here today. This hearing is the first in a 
series of hearings probing the question whether China's soft 
power educational initiatives are undermining academic freedom 
at U.S. schools and universities.
    We see it manifested primarily in two ways. The first is in 
the building of satellite campuses in China or American 
universities where Chinese rules of engagement are said to hold 
sway, in other words, places where no criticism of the Chinese 
Government or promotions of democracy and freedom are allowed.
    Second, we see it in the myriad outposts of Chinese soft 
power that have opened on campuses throughout the United States 
and the world, the so-called Confucius Institutes whose 
curricula integrates Chinese Government policy on contentious 
issues such as Tibet and Taiwan and whose hiring practices 
explicitly exclude Falun Gong practitioners. It should be noted 
that we are seeing emerging faculty opposition to these 
institutes as well as to the all too cozy and lucrative 
arrangements which American universities have with institutions 
affiliated with the Chinese Government.
    This prompts us to ask the question: Is American education 
for sale? And, if so, are U.S. colleges and universities 
undermining the principle of academic freedom and, in the 
process, their own credibility in exchange for China's 
education dollars?
    You know, a number of years ago, the author James Mann 
wrote a book called ``The China Fantasy'' where he recounts 
how, in the 1990s, some American business leaders and 
government officials put forward the fantasy that free trade 
with China would be the catalyst for political liberalism.
    I have been to China many times. I was in China almost 
immediately after the Tiananmen Square massacre. At one of the 
meetings in the early 1990s with American businessmen and, 
despite the ongoing jailing and executions of dissidents, these 
businessmen in China told me that if we just trade a little 
more, the dictatorship will somehow matriculate into a 
democracy. As we all know now, China has failed to democratize, 
despite increases in the standard of living by many, but 
certainly not all of its citizens.
    Political repression is an all too common occurrence. I 
have chaired now to date almost 50 Congressional hearings on 
Chinese human rights abuses. It is not getting better. It is 
getting demonstrably worse, especially under Xi Jinping. Yet 
U.S. policy toward China continues to overlook abuses of 
fundamental human rights for the sake of business opportunities 
and economic interests.
    But what about U.S. universities who often tout their 
adherence to higher ideals and equate their nonprofit status as 
a badge of good citizenship, which puts them above reproach. 
Perhaps they, too, are engaged in their own version of ``The 
China Fantasy,'' willing to accept limitations in the very 
principles and freedoms that are the foundation of the U.S. 
system of higher education, justifying quiet compromises that 
they would never entertain at home by telling themselves that 
they are helping to bring about change in China.
    As Dr. Perry Link brilliantly argues, these compromises 
often take the form of self-censorship about what universities 
and faculty teach, who they invite to speak, what fellows they 
accept in residence. So long as the dragon is not provoked, 
they think they will be allowed to continue doing their work, 
slowly changing China from the inside. But are these American 
universities changing China or is China changing these American 
universities?
    What is the reason that New York University, for example, 
terminated the fellowship of a world-class human rights 
advocate and hero, Chen Guangcheng? NYU was one of those 
prestigious universities for which China built a campus, a 
satellite of the University of Shanghai. Though the Chinese 
Government laid out the funds--and it was a huge amount of 
money--the transaction involved a moral cost. As certain 
members of the NYU faculty wrote in a letter to the university 
board of trustees, the circumstances surrounding the launch of 
an NYU satellite campus in Shanghai and the ending of Mr. 
Chen's residence created what they called ``a public 
perception, accurate or otherwise, that NYU made commitments in 
order to operate in China.''
    I would like, without any objection, to include in the 
record the letter from the NYU faculty. And without objection, 
it is so ordered.
    I want to note very clearly that we have repeatedly invited 
NYU's president and key faculty to testify before this 
subcommittee. And so far, without any success, on five separate 
occasions, we gave NYU 15 different dates to appear here, to 
answer serious questions about their relationship with China 
and, so far, they have begged off on each and every one of 
them.
    This is the first of a series of hearings. I can tell you, 
we will re-invite NYU and other institutions of higher learning 
to give an account, to tell us exactly what are those terms and 
conditions and whether or not they are being muzzled and 
stifled when it comes to human rights and democracy and other 
basic freedoms. And I do hope they will come.
    On a personal note, I spent considerable time with Chen 
Guangcheng when he first came to the United States, having 
worked on his case since 2004, which included four 
congressional hearings exclusively dedicated to his freedom. At 
two of those hearings, he phoned in from the hospital where he 
was after he was kicked out of the U.S. Embassy. And at the 
last one, he said, I want to come to the United States. The 
next day, the Chinese Government granted him that request.
    However, it is my impression that the NYU officials and 
others sought to isolate him from supporters viewed as too 
conservative or those they considered Chinese dissidents. We 
may never know if NYU experienced what Chen himself termed as 
persistent--and these are his words--``persistent and direct 
pressure from China to oust him'' or if it was simply an act of 
prudent self-censorship to keep in Beijing's good graces. I 
don't know the answer. But it is my conviction that self-
censorship and the chilling effect that this has had is even 
more pernicious a threat to fundamental freedoms and to the 
principle of academic freedom.
    One of our witnesses, again, Dr. Perry Link, has made this 
case repeatedly over the years drawing on his own personal 
experiences. And I thank him and all of our very distinguished 
witnesses for being here today.
    I would note for the record we are not here to relitigate 
the sad divorce of Chen Guangcheng and NYU. It is a 
disheartening part of a larger issue, however, whether American 
universities will compromise academic freedom again to get a 
piece of the lucrative Chinese education market.
    Today's hearing, then, will mark the beginning of a long 
hard look of costs and benefits of the growing number of 
Chinese educational partnerships started by U.S. universities 
and colleges, including exchange programs and satellite 
campuses in China and Confucius institutes in the United States 
and around the world.
    While foreign educational partnerships are important 
endeavors--I was an exchange student, it was a great 
experience, no one is questioning that--this is a whole 
different focus. I think we can all agree that U.S. colleges 
and universities should not be outsourcing academic control, 
faculty and student oversight, or curriculum to a foreign 
government, in this case, a dictatorship. Unfortunately, there 
is now some evidence emerging giving rise to this hearing.
    The American Association of University Professors or AAUP, 
along with its sister organization in Canada, published a 
report in July blasting the Confucius Institute model as a 
partnership that ``sacrificed the integrity of the [host 
university] and its academic staff'' by requiring 
``unacceptable concessions'' that allow ``the Confucius 
Institutes to advance a state agenda in the recruitment and 
control of academic staff, in the choice of curriculum, and in 
the restriction of debate.'' That is fully their quote.
    The AAUP concluded by saying that--and I quote it again--
``Confucius Institutes function as an arm of the Chinese state 
and are allowed to ignore academic freedom'' and recommended 
shutting down U.S. Confucius Institutes unless they could meet 
certain standards of academic freedom and transparency.
    The Confucius Institutes are China's soft power push, an 
attempt to increase the number of young people studying and 
ideally, from their point of view, coming to admire, and ours, 
Chinese culture and language. This is not harmful in itself for 
the Chinese culture and language, as distinct from its 
political culture, is indeed admirable.
    But while some U.S. university administrators say the 
influence of Confucius Institutes is benign, University of 
Chicago's professor Marshall Sahlins has called the Confucius 
Institutes ``academic malware,'' inimical to the U.S. model of 
academic freedom.
    What we should do is welcome U.S.-China educational 
partnerships that promote cultural understanding and critical 
language skills and protect academic freedom, that allow the 
teaching of sensitive topics and not subject to any of same 
rules that govern Chinese academic institutions where 
professors are fired or jailed for exercising the universal 
right to free speech.
    Indeed, there is a U.S. national security interest in 
having U.S. students learn Chinese, but such language skills 
should be taught on our terms, without the baggage brought by 
the Confucius Institute ties. And if those freedoms are 
violated or compromised, we need to find some recourse, whether 
through withholding Department of Education funds or State 
Department exchange program funds from schools that willingly 
compromise the principles of academic freedom and human rights 
to gain, again, a small share of the Chinese educational 
market.
    That is why I am announcing today that I will be asking the 
General Accountability Office (GAO) to study and review the 
agreements of both satellite campuses in China and of Confucius 
Institutes in the United States. I would also like to know if 
those agreements are public, whether they compromise academic 
or other freedoms of faculty, students, and workers, and 
whether Chinese teachers are allowed the freedom to worship as 
they please and to teach about Tiananmen Square, including the 
massacre, Tibet, or Taiwan.
    I will also ask the GAO to study whether U.S. satellite 
campuses in China operate differently from Chinese universities 
and whether there is a two-tier system in place where Chinese 
students and faculty have more restrictions placed on their 
activities and research than U.S. students and faculties.
    I will also ask whether the Communist Party committees 
operate on campus, whether fundamental freedoms are protected 
for both Chinese and U.S. students and faculty, again, 
religious freedom, Internet freedom, freedom of speech, 
association, and whether universities are required to enforce 
China's draconian population control policies, particularly on 
the young women who may be attending those facilities and those 
institutions.
    These are important questions, and there are more. We need 
to look at whether these issues can be handled by the 
universities, their faculties and trustees themselves, or if 
there is something the U.S. Congress and the President must do 
to ensure that academic freedom is protected. U.S. universities 
and colleges should reflect and protect the highest principles 
of freedom and transparency. They should be islands--islands of 
freedom where foreign students and faculty can enjoy the 
fundamental freedoms denied them in their own country.
    And, again, I want thank our witnesses. And before I 
introduce to them, yield to my good friend and colleague Mark 
Meadows for any opening comment.
    Mr. Meadows. Well, I just thank the chairman for your 
leadership on this particular issue.
    Thank each one of you as witnesses. Certainly, we want to 
hear from you. There are others that are monitoring this, but I 
would close with this, human rights--the basic human rights 
that all of us should enjoy are areas that have really been a 
hallmark within a lot of our universities in terms of being the 
beacon of making sure that those voices are heard. And yet here 
we see, tragically, the reverse potentially being done.
    And so as--you heard the passion in the chairman's voice. I 
can tell you that, whether it is before a camera or whether it 
is in the privacy of his office where there are just two of us, 
that passion is consistent and is unyielding.
    And so with that, I would yield back, Mr. Chairman.
    Mr. Smith. Thank you very much here, Mr. Meadows.
    I would like to now introduce our very distinguished panel, 
all who have impeccable records but, also, have been true game 
changers when it comes to human rights.
    And I would like to begin first with Dr. Perry Link, who is 
professor emeritus of east Asian studies at Princeton and 
Chancellorial chair for teaching across disciplines at the 
University of California at Riverside. He has published widely 
on modern Chinese language, literature, and popular thought and 
is a member of the Princeton China Initiative, Human Rights 
Watch/Asia, and other groups that support fundamental human 
rights. He has authored numerous books, and he co-edited with 
Andrew Nathan ``The Tiananmen Papers, The Chinese Leadership's 
Decision to Use Force Against Their Own People.'' Since 1996, 
he has been blacklisted and denied visas by the Chinese 
Communist Government.
    We will then hear from Dr. Thomas Cushman, who is professor 
in the social studies and professor of sociology the Wellesley 
College. His academic work has focused on the comparative study 
of Communist societies with a special emphasis on Communist 
Party control of civil society and dissidence. He has taught 
and written extensively on the use of propaganda by 
authoritarian governments to shape public opinion in liberal 
democratic societies. He has written and edited numerous books, 
is a founder and former editor-in-chief of the Journal of Human 
Rights, and is a prominent activist in the global freedom 
movement in supporting dissidents in contemporary authoritarian 
societies.
    We will then hear from Dr. Xia Yeliang, who is a visiting 
professor at the Cato Institute's Center for Global Liberty and 
Prosperity. Dr. Xia's work focuses on the institutional and 
policy reforms China needs to become modern, a free society. 
Prior to joining Cato, Dr. Xia was a professor in the 
department of economics at Peking University where he taught 
since 2000. He was dismissed by Peking University in October 
2013 because of his outspoken criticism of China's Communist 
Party and his advocacy of democracy and basic human rights. Dr. 
Xia was among the original signers of Charter 08, a 2008 
manifesto calling for basic freedoms, constitutional democracy, 
and respect for human rights, and was a founder of the Cathay 
Institute of Public Affairs, a market-liberal think-tank in 
China.
    We will then hear from Dr. Sophie Richardson, who is no 
stranger to this subcommittee, who is China director at Human 
Rights Watch. Dr. Richardson is the author of numerous articles 
on domestic Chinese political reform and democratization and 
human rights in many Asian countries. She has testified before 
the European Parliament, the U.S. Congress, this subcommittee 
many times, as well as others, and has provided commentary to 
many prominent news outlets. Dr. Richardson is the author of 
``China, Cambodia, and the Five Principles of Peaceful 
Coexistence,'' an in-depth examination of China's foreign 
policy since 1954's Geneva Conference, including rare 
interviews with policymakers.
    Just an extraordinary panel. And, Dr. Perry Link, I would 
like to yield to you such time as you may consume.

    STATEMENT OF PERRY LINK, PH.D., CHANCELLORIAL CHAIR FOR 
    INNOVATIVE TEACHING, UNIVERSITY OF CALIFORNIA, RIVERSIDE

    Mr. Link. Thank you, Mr. Chairman, and Congressman Meadows, 
for inviting me to this important hearing.
    In academic exchange with China, our country has two very 
different kinds of interlocutors on the other side. These are, 
number one, the officials of the Communist Party of China and, 
two, Chinese scholars themselves. And it is crucial to 
distinguish these two different players. Most of the mistakes 
of U.S. academic administrators come from a failure to 
distinguish them. The two groups have different goals. The main 
goal of the Chinese scholars, like scholars everywhere, is to 
advance knowledge.
    The main goals of the Communist Party are three: First, to 
gain technological knowledge that will be useful in increasing 
the power of the Chinese state. Second, to spread abroad a rosy 
version of Chinese history that is incomplete and, in important 
respects, false. And, third, to intimidate and to punish 
scholars, both Chinese and Western, who do not cooperate.
    It is crucially important to recognize the nonscholarly 
goals of the Communist Party of China and, hence, to be careful 
in scholarly exchange. But it would also be a serious mistake 
to turn away from China's genuine scholars who have come under 
increasingly severe pressure in recent months. The Chinese 
Government has issued orders nationwide that scholars must 
support the Communist Party and reject so-called universal 
values. Chinese scholars who disobey are subject to harassment, 
firings, and even imprisonment.
    The political persecution of scholars in China today is 
worse than it has been since the 1970s under Mao Zedong. This 
persecution is part of a larger pattern of aggressive behavior 
by the Chinese state on many fronts. One of the many costs of 
the troubles in the Middle East is that it is distracting 
attention from the serious trouble that is brewing today in 
China.
    Inside China, for decades, the main tool by which the 
Communist Party has controlled expression has been to use fear 
to induce self-censorship. ``Don't say what we do not want to 
hear or you will bear the consequences.'' Now, with China's new 
wealth and rise on the world stage, the Chinese Communist Party 
has sought to apply these same tools in other countries, 
including ours. The effects are visible in business and 
diplomacy, but here I will restrict my comments to academics.
    Western scholars, like myself, are made to understand that 
if they cross red lines in their public expression, if they 
mention topics such as Tibetan or Uyghur autonomy, Taiwan 
independence, the Falun Gong, the Tiananmen massacre, Chinese 
imprisoning the Nobel Peace laureate Liu Xiaobo, the 
spectacular wealth of the superelite families of Xi Jinping, Li 
Peng, Wen Jiabao and others, then, they will have trouble. 
Their access to field work, archives, and interviews might be 
blocked and they can be blacklisted from entering the country 
entirely.
    At any given time, there are only a dozen or two American 
scholars on visa blacklists but the effect of the blacklists 
extends much, much farther because virtually every scholar 
knows about the blacklists and has an incentive to stay clear 
of the red lines. This pressure affects the way American 
scholars use language, and here there are major costs to the 
American public. Because, for example, Beijing forbids mention 
of Taiwan independence, scholars speak of ``the Taiwan 
question'' or ``cross-strait issues.'' Similarly, the Tiananmen 
massacre becomes only ``an incident.'' Graduate students are 
counseled not to write dissertations about Chinese democracy 
for fear that blacklisting might ruin their young careers. 
Seasoned scholars are afraid to go on the PBS News Hour to 
comment on politically sensitive topics.
    In addition to fear as a way to induce self-censorship, in 
recent times, the Chinese Government has used positive 
inducements to similar effect. It has funded an archipelago of 
Confucius Institutes to teach Chinese language and culture in 
colleges and high schools around the world, including more than 
70 in our country. American recipients of these funds know, 
without having to be told, that they must not invite the Dalai 
Lama, hold seminars on Liu Xiaobo, or cross other Communist 
Party red lines. A wordless self-censorship reigns. And 
students see only a blanched cameo of what China is today.
    Now, I am trying to stay under 5 minutes, so I am going to 
name my three policy recommendations in brief. But you can read 
more about them in my written statements.
    Mr. Smith. Again, if----
    Mr. Link. Pardon?
    Mr. Smith [continuing]. Any of you exceed the 5, we are 
more than happy to receive it orally as well. So don't limit 
yourself too much, okay.
    Mr. Link. My first policy recommendation is that the U.S. 
Government should fund Chinese language programs in the U.S. 
Our chairman himself mentioned this a moment ago. Why should 
we--and by ``we'' I mean school administrators across the 
country--hand our young people over to an authoritarian 
government because they supply the funds? We have enough funds 
for that. Certainly, this should be a vital national interest.
    My second recommendation is that American university 
administrators, in their programs with China, should adopt a 
policy of consciously staking out the broadest of fields. What 
I mean by that is that, when a satellite campus is set up in 
Shanghai or somewhere or a Confucius Institute here, the policy 
ought to be to make it clear in a low-key but dignified way 
that we will talk about Liu Xiaobo, we will talk about the 
Tiananmen massacre, we will have seminars with the Dalai Lama, 
if we can get him to come, not for the purpose of sticking our 
fingers in the dragon's eye, but in order to stake out the 
borderline. Because if you don't stake out the borderline, 
natural self-censorship will kick in and the field with shrink, 
shrink, shrink, shrink, shrink, until you are saying nothing 
except that blanched cameo.
    The third recommendation I have is that the U.S. Government 
should withhold visas for Confucius Institute instructors at 
high profile U.S. institutions until the practice of 
withholding visas for American scholars on political grounds is 
ended.
    And I will stop there. Thank you, Mr. Chairman.
    Mr. Smith. Thank you so very much, Dr. Link.
    [The prepared statement of Mr. Link follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                              ----------                              

    Mr. Smith. We now go to Dr. Cushman.

   STATEMENT OF THOMAS CUSHMAN, PH.D., DEFFENBAUGH DE HOYOS 
    CARLSON CHAIR IN THE SOCIAL SCIENCES, WELLESLEY COLLEGE

    Mr. Cushman. I would like to thank the committee, and Mr. 
Chairman and Mr. Meadows, for inviting me to provide testimony 
today.
    My comments are a very brief overview of a more detailed 
written testimony submitted for the record.
    We have already talked about Confucius Institutes, 
satellite campuses. My concern has been with the more small-
scale partnerships being forged out between the United States 
and Chinese institutions involving exchanges of students and 
faculty in special events around common themes. We have much 
less data on the nature and structure of these relationships, 
but I feel like they are one of the more important emerging 
structural relationships between U.S. and Chinese institutions.
    Just last week, Chinese President Xi Jinping noted that the 
Chinese foreign policy should be designed to ``increase China's 
soft power, give a good Chinese narrative, and better 
communicate China's message to the world.'' It should be 
stressed at the outset that partnerships between U.S. and 
Chinese academic institutions will be a major means for 
promoting this Chinese foreign policy objective.
    I would also like to raise the question, perhaps 
rhetorically, of what does it mean for U.S. institutions to 
enter into a literal partnership with the Chinese Communist 
Party. On the U.S. side, institutions of higher education are a 
main mechanism of the 100,000 strong initiative put forth by 
the Obama administration in 2009.
    China is a rich source of revenue from the estimated 
274,000 Chinese students studying in the U.S. The vast majority 
of whom paid full tuition and costs. Students from the PRC 
contribute an estimated $27 billion per annum to the American 
economy. Most of the attention to date in a scholarly way has 
been focused on Confucius Institutes. As I said, my concern is 
with the more general partnerships that we really have very 
little data on, but that I am starting to collect.
    Based on my own experiences and research, I would like to 
raise some concerns about these new partnerships in answer to 
the central question of the hearing, is academic freedom 
threatened by Chinese influence in universities? And many of my 
observations mirror those of Professor Link and, I am sure, 
others on the panel and elsewhere.
    Number one, formal exchanges and partnerships provide 
platforms for official positions of the CCP to be aired on U.S. 
campuses and at formal events in China. At many academic 
events, whether in China or the U.S., one can expect the 
presence of representatives of the CCP, who monitor events, 
engage in surveillance of Chinese participants and, when 
possible, use such events for official propaganda purposes.
    Two--and this has been covered already--but institutions 
and programs in the U.S. may decide not to cover certain topics 
during official events because of concern for offending or 
being rude to their Chinese counterparts or because of direct 
pressure from the Chinese side.
    Three, scholars of China may self-censor and avoid public 
criticism of aspects of China for fear of losing access to 
China. And this has been already gone over, so I won't mention 
it again.
    Fourth, the partnerships are asymmetrical. U.S. scholars 
are subject to close scrutiny for their work and face potential 
bans from China, whereas Chinese scholars are free from such 
constraints and can, theoretically, discuss the problems of 
American society with impunity. And given that the cultural 
climate in American universities, you might actually add that 
Chinese scholars who come and criticize the United States would 
be welcomed, as opposed to U.S. scholars going to criticize 
aspects of Chinese society.
    Fifth, for many U.S. faculty members of Chinese origin, 
exchanges between U.S. institutions--between their institutions 
in the U.S. and their home country represent intercultural 
opportunities that could not be dreamed of just a short time 
ago. Chinese faculty members in the United States are building 
important bridges between the U.S. and China that are 
necessary, but some might be less hesitant to criticize China 
in order to protect these new opportunities, to protect their 
own access to China, and especially, from what I have been able 
to determine, to protect family members who remain there.
    Sixth, professors who are increasing subject to student 
evaluations for promotion, tenure, and salary increases, 
especially at the junior levels, may avoid discussing sensitive 
topics about China in their classes out of fear of negative 
evaluations by Chinese students who are understandably 
defensive and patriotic about China.
    Seven, professors who are publically critical of particular 
practices in China, especially those of the CCP, run the risk 
of being labeled as anti-China or anti-Chinese. This deliberate 
propaganda tactic of equating criticism of the policies of the 
CCP with criticisms of persons of Chinese or more general Asian 
descent is especially effective in the current climate of 
identity politics that predominates on American campuses.
    The fundamental duty of all U.S. universities is the 
protection of academic freedom as the inalienable moral 
foundation of the modern university. In order to protect 
infringements on academic freedom that might ensue from 
partnerships with Chinese institutions, professors must take a 
leading role in, first, fostering debates on controversial 
issues that are avoided on campuses, especially in resistance 
to people who might try to stop them.
    Two, exposing deliberate CCP propaganda efforts associated 
with events carried out in the U.S. under the aegis of 
partnerships. This task can be enhanced by drawing on the 
considerable experience and expertise of Chinese dissidents and 
human rights activists and inviting them to campuses at every 
available opportunity, again, with the coda that there might be 
resistance to such things.
    Third, providing Chinese students with the tools for 
critical thinking that are the core of the liberal arts, while 
at the same time understanding and respecting their views and 
experiences as students who are educated in an environment 
where independent and critical thinking are highly 
circumscribed.
    Fourth, developing courses that deliberately examine 
controversial topics that are avoided in China and which other 
faculty in the U.S. environment might not teach in order to 
avoid giving offense, again, with the coda that there might be 
resistance to such things.
    In my full written report to the subcommittee, I have made 
several policy recommendations for your consideration, one of 
which I will mention--that I think that one thing we don't know 
and that, I think, that political authorities might be 
concerned in finding out--is among institutions who receive 
Federal funding for their programs in no matter what form, 
there should be some kind of audit or kind of inventory of 
exactly how many American universities have what kind of 
partnerships with China, what is discussed at these 
partnerships. This is an extremely important thing. We just 
simply don't know how many there are.
    And I also suggest that colleges themselves and 
universities who receive Federal funds who somehow get money 
from the Government for any of their programs should also 
ensure that there are yearly audits of things that go on in 
their own campuses which demonstrate to the rest of the world 
and academia and even people like this committee that there is 
legitimate academic freedom and efforts to protect academic 
freedom on American campuses.
    Thank you very much.
    Mr. Smith. Mr. Cushman, thank you very much for your 
excellent testimony and your leadership and you and the other 
professors who bravely stood up for Dr. Xia, who is our next 
witness.
    [The prepared statement of Mr. Cushman follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                      ----------                              


 STATEMENT OF XIA YELIANG, PH.D., VISITING FELLOW, CENTER FOR 
         GLOBAL LIBERTY AND PROSPERITY, CATO INSTITUTE

    Mr. Xia. Thank you, to the chairman and the committee.
    I have the serious doubt on how the NYU Shanghai campus can 
possibly avoid the ideological control and the moral education 
for the students--just for U.S. higher institutions. Because in 
China we have four--normally we have five courses. That is 
compulsory courses for undergraduate students, including 
Marxist theory, Mao Zedong thought. And those courses cannot be 
avoid.
    So I wonder whether the American students--of course, 
American students, they can choose take this course or not. But 
the Chinese students, even they are registered by the American 
universities, they still have the compulsory courses to 
complete.
    So that means that the Chinese students who get degrees 
from the prestigious universities from U.S., they still have 
the ideological control and moral education in China. That is 
one point.
    Nowadays, we find in several cases the Chinese authority 
order to have installed many numerous video cameras for 
classroom teaching all over in China. So that means that the 
teachers will be monitored all the time when they give the 
courses. So, in some cases, the teachers will be talked by 
either party secretary and some political instructors, say, 
what you talk about the democracy and the constitutions it is 
not proper to talk in classroom and so on and so forth.
    Nowadays, Chinese regime send a lot of their teachers and 
set up a lot of their Confucius Institutes overseas. It is a 
part of the strategy of the grand propaganda overseas. 
According to the official report, annual report of the 2013, 
they have established 440 Confucius Institutes and 646 
Confucius classrooms in over 120 countries and regions.
    We know the expenditure for each Confucius Institute is 
about half of a million U.S. dollars and, then, that is $60,000 
for each classroom. So if you just calculated those total 
figures, you could see how much they spent on the export of the 
soft power, actually is the kind of their export of the 
ideology of Marxism, not socialism.
    And as a recent case that American high school students, 
whose name is called Henry DeGroot from Newton North High 
School, when he got the opportunity to visit China and exchange 
ideas with local students, and he choose his ideas on the 
democracy and freedom. And then, eventually, he was asked to 
apologize to those students. And the American schools and 
administrators think he violated rules. That means, American 
students, you cannot express your own values and ideas in 
public overseas. That means that you cannot break the taboo. 
But those kind of taboo, it is the Communist taboo. So that 
means, the Western people, you have to give up your values and 
principles while you are traveling overseas.
    And in many cases, I think that the faculty members and 
administrators in the most prestigious universities in the U.S. 
nowadays, they have some consideration on whether to have the 
collaboration with China or they persist on their own values.
    I know that some universities, they need some more funding 
and more students come from China. It is a great source for 
funding. But, meanwhile, they are not challenging the Communist 
values. They do not mention the three Ts, Tibet, Taiwan, and 
Tiananmen, and Falun Gong, and so on and so forth.
    And, in my own personal experience at Stanford, as a 
business scholar, last year, we arranged a talk, speech, used 
the classroom at Confucius Institute at Stanford. And then we 
talked about constitutional issues. After that speech, my 
scheduled speech on the Chinese economy and policies was 
canceled. And people told me because the people from the 
Confucius Institutes, they think that your ideas is too 
aggressive and radical. It is not good. So they will not allow 
you to give the moral speech in their classroom. But that 
classroom is located on the campus of Stanford. Doesn't it mean 
that the occupation of their territory or something in American 
campuses. So you don't have academic freedom, even on campuses 
of universities in U.S. So how can you export the liberal ideas 
to the authoritarian countries if you cannot persist on your 
own ideas.
    And, also, nowadays, the Chinese regime that became very 
confident after Xi Jinping became the President, they think 
that they have the free confidence in institutions and theories 
and, also, in goal. They think that the Communist China will do 
better than the capitalist countries. So that they have tried 
to take all alternatives to replace the old values, they think.
    For instance, they will say China's model is better than 
the Western model, American model. They tried to use the 
Chinese dream to replace the American dream. They use Beijing 
Consensus to replace the Washington Consensus and so on and so 
forth. Every thing, every good thing you can find, they will 
try to find to establish new alternatives. Like Google, they 
use Baidu, for eBay, they use Alibaba, and for Amazon, they use 
DangDang. Everything, they will find an equivalent or make 
alternatives to replace. Like YouTube, they use Youku, and so 
on and so forth.
    So, in the future, that means with expansion, not only the 
economic expansion, but also military expansion. So China tried 
to be another superpower and compete with U.S. in many, many 
things, not only in the economic market activities, but also on 
values and principles of the human beings. There is a lot of 
materials to provide with figures and the calculations.
    In China, we have so many schools lacking of funding, 
especially in rural areas. I mean, those poorer students that 
cannot afford to pay a lot of stuffs for learning. And they 
cannot get qualified teachers because of the lacking of 
funding. But, now, China spends huge money to establish 
Confucius Institutes.
    And so what is the point of that? It is kind of the 
ideological export. It is not international assistance in 
finance or in some other poverty solutions. I mean, if they 
really have that money, they should spend in China domestically 
and in rural areas to lot up their shabby classroom and 
schoolhouses to be reconstructed or renovated.
    So about the NYU campus in Shanghai. They admit that, on 
this campus, it is hard for you to use Google and others, like 
YouTube, Facebook, and Twitter. So it is advisable that people 
should have their own solution, whether use VPN to be paid or 
they use some other software when they come to China. If they 
want to get access to all the Internet for academic research, 
they have to suffer all those inconveniences in China.
    So is that the cost and compromise that the universities 
has to pay? And I have raised that question many times. I said, 
if there are some dictators were trained, they have their own 
education in U.S. institutions, can you call that American 
university as a success for ones to train people in good 
values?
    Like Kim Jong-Un, when he back to North Korea, he became 
another dictator. So when Bo Guagua, the son of the Bo Xilai, 
he had all the highest level of education in Britain and U.S. 
So when he returned, after nothing happened to his dad, it is 
very possibly for him to become another national leader. So 
that means more and more dictators will be trained, even in the 
U.S. universities. So that is a great challenge to our values 
of education.
    I don't know whether there is still time. It didn't show 
here. So I guess, because of the language barrier, I can only 
say a few.
    Mr. Smith. Well, Dr. Xia, thank you very much. And I am 
glad your written testimony is excellent and will inform and 
help us big time going forward on what to do and what our 
response should be.
    [The prepared statement of Mr. Xia follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
        
                              ----------                              

    Mr. Smith. Dr. Richardson.

 STATEMENT OF SOPHIE RICHARDSON, PH.D., CHINA DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Chairman Smith, Congressman Meadows, it is 
great to see you. Thanks for inviting me to join you.
    We have only just begun research in earnest on this topic 
in the last couple of months. And we consider academic freedom 
to be a critical form of the freedom of expression. And at a 
time when exchanges between China and the U.S. and others are 
increasing, possibly, at an all-time high--and that is a trend 
that generally we encourage because we think there are enormous 
benefits in both directions. So we don't do this research 
because we want to shut these exchanges down. Quite the 
reverse. We want to make sure that they are taking place within 
a context of and ensuring the highest standards of academic 
freedom.
    So I think what I can do best this afternoon is just give 
you some of our preliminary observations based on the roughly 2 
dozen interviews that we have done so far. There are two things 
that every single academic we have talked to has said to us. 
One is that they are all deeply concerned about this problem.
    The other is--and I am not making it up. Literally every 
single person, at some point in the conversation has said to 
us, ``follow the money.'' And by that, they have meant 
everything from who is funding which programs, what quid pro 
quos exist, what opportunities may be on offer in the future. I 
have never heard this phrase used so frequently. After somebody 
said it in the fourth or fifth interview, I thought there is 
definitely a trend here that we all need to be following.
    I think, while the degree of concern about lowering 
academic expression standards is fairly consistent, I think the 
individual perceptions of vulnerability, either at an 
institutional or an individual level, thus far, seems to vary 
enormously depending on the prominence, the wealth, and the 
depth of China programs for the institutions or the individual 
academic in question.
    Almost everyone worries specifically about access to China, 
but the people who continue to be particularly vulnerable, 
perhaps present--some present company excluded, are young, 
untenured faculty members who must be able to do field work in 
order to be able to complete book projects to bid for tenure. I 
think this is arguably one of the biggest problems to wrestle 
with.
    And, certainly, Americans teaching both in China and 
outside China have told us quite explicitly that they have 
chosen to avoid topics such as Tibet or Tiananmen in their 
classrooms, even when they haven't specifically been asked to 
do so. Several have also suggested to us, people who have been 
working on or in China for years, that they feel the pressures 
have gotten more acute in the last year. That is a little bit 
harder to nail down specifically.
    But the kinds of abuses at the moment that, I think, 
concern us the most--and stay tuned since we may learn 
different things over the coming months--is certainly the idea 
that a far lower standard of academic freedom could become the 
norm or could become accepted--hi, Mr. Wolf--even when it is 
clearly stipulated by international law and certainly by 
practice outside of China. And I particularly want to echo 
Professor Link's point that there are real consequences for 
knowledge and not just knowledge of a kind that is important to 
the academic community, but that is essential, I think, for 
policy purposes, for economic purposes, for strategic purposes.
    The most pervasive kind of problem we have documented so 
far certainly is about censorship, which seems to come in two 
different forms. There is self-imposed, which, again, is 
largely about maintaining access. But there is also imposed 
censorship, people specifically being told or departments 
deciding not to focus on certain topics. Again, it is early 
days to give a definitive view about this, but some of the 
sensitivity seems to be worse on issues that have an economic 
or a security dimension to them.
    Arguably most alarming to us is the phenomenon of threats 
to or harassment of students, faculty members, institutions as 
a whole. We were very alarmed, in an interview just a few weeks 
ago, when a very senior, very well regarded scholar who is of 
ethnic Chinese descent said I absolutely change what I say in 
public because I am worried about the consequences for my 
family inside China. You know, that is not the world we should 
be living in.
    It is early days to give you recommendations. We usually 
wait until we are a little further down the track. But I can 
see offering up to institutions, in particular, a sort of 
academic freedom safeguards checklist, a bit akin to what 
businesses or international financial institutions use to 
assess risk when they are entering into new countries, new 
partnerships, or new kinds of ventures.
    I think it might also be helpful for universities to have 
to share amongst themselves almost a code of conduct or an 
action plan where they have agreed, in advance, how they will 
push back against certain kinds of threats to academic freedom. 
Many of these different universities are describing to us the 
same kinds of problems. And I think if there was a little bit 
more of sharing of those experiences and a commitment to a 
particular kind of reaction, that protected a higher standard 
of academic freedom, we might see a lessening of certain kinds 
of pressure. I think there is probably a long conversation to 
be had about U.S. Government funded academic exchanges and 
making sure that rights are protected therein. Perhaps we can 
save that for the next hearing. Thanks.
    Mr. Smith. Dr. Richardson, thank you so very much.
    [Ms. Richardson did not submit a prepared statement.]
    Mr. Smith. And we are joined by Chairman Frank Wolf. Thank 
you, Chairman.
    Just to begin the questioning, and then I will yield to my 
two distinguished colleagues. Let me just ask you all, you 
know, New York University was the first with a satellite campus 
partnership in Shanghai in 2013, Duke, Kean in New Jersey, 
University of Pittsburgh, Johns Hopkins, Fort Hays in Kansas, 
Carnegie Mellon, Missouri State University, and University of 
Michigan have all opened in the last year these satellite, 
money-rich efforts. And then there are 97 Confucius Institutes 
in the U.S., 429, as far as we can tell, worldwide operating in 
universities, in 115 countries. This is an all-out effort by 
the Chinese Government.
    And let me just ask you, if I could, you know, maybe to 
briefly focus on Hanban and their role in all of this. We 
understand that some 10,000 teachers are taught every year, 
recruited and then taught and then deployed. For example, is 
NYU branding authoritarianism and dictatorship?
    We asked the Congressional Research Service to look into 
this and last year--again, I have asked NYU to be here. I said 
15. It was 16 separate dates that we gave them, beginning on 
February 4th of last year and gave them--we said, ``We are 
available. We want to hear. We want real answers to genuine 
questions.'' And they gave us no response or ``can't testify,'' 
``scheduling conflicts,'' ``overcommitted,'' and we will 
continue to try to get them to come here.
    But I am especially concerned when the Congressional 
Research Service finds that for Chinese students--this is at 
their Shanghai campus--two-thirds of the $45,000 tuition cost 
is paid for by the Shanghai City Government. That is a huge 
subsidization, not just of the building that is being handed 
over, but also to the actual student tuition.
    It raises questions. Who, then, gets to be the students? 
Who controls the admission policies? Maybe you can speak to 
that. I doubt if it is the son or daughter of a dissident or 
of, like, Falun Gong practitioner or a Protestant underground 
church leader or a Catholic Church member who is not a member 
of the Patriotic Church. It raises serious questions about 
how--the filtering of who, then, comes in.
    You, Dr. Xia, gave excellent testimony about the Marxist 
mandatory political education, five compulsory courses, Mao 
Zedong, Marxism, elementary principles. Maybe you could expand 
on that very briefly.
    A good news story is that a number of universities like 
Chicago and Pennsylvania State have cut ties with the Confucius 
Institutes. So there are some push backs. I would respectfully 
say it is happening because of your work. Like, you, Dr. 
Cushman, the faculty are speaking up and it is becoming a game 
changer out there. Is that a trend or are these just isolated 
incidents that are happening? And I have a lot of other 
questions, but I will just conclude with the other ones and 
yield to my colleagues.
    Last year, the Chinese Communist Party issued the seven 
noes policy to universities and professors, including no 
discussion of democracy, freedom of the press, civil society, 
human rights, the Communist Party's mistakes in the past, the 
rich and the powerful class, an independent judiciary. How does 
this apply to the satellites? Do they have to follow that?
    And I could just add my own. On the Internet, you 
mentioned, Dr. Xia, some of the problems there. You know, are 
they getting the same censorship? In 2006, I held the beginning 
of a series of hearings on Google. We had Google, Microsoft, 
Yahoo, and Cisco testify. They were sworn in, and they 
basically told us they were just following Chinese law in the 
censorship. Now that has been handed over to Chinese companies 
who, I believe, are probably even more egregious in their 
censorship. What happens on these campuses? The Shanghai campus 
of NYU?
    Then the last question would be on the enforcement of the 
egregious, horrific anti-woman policy called the one-child-per-
couple policy and forced abortion. No unwed mother in China can 
have a baby that can't get a birth-allowed certificate. It just 
can't happen. Now, many women who attend college are still 
single. How does the college, how does NYU's Shanghai campus, 
or any of these others implement that?
    If you could.
    Mr. Link. I would like to note the presence of 
Representative Wolf and thank him for coming. He, too, has been 
stalwart over the years in this cause and that is wonderful. 
There are a number of questions here. I will just tic off a few 
answers and turn to our fellow panelists.
    On the satellite campuses in China, fundamentally, the 
self-censorship problem, I think, is the same as the pressures 
that come to this side of the ocean. And, in my view, those 
self-censorship problems are still the most far-reaching 
because they are invisible. You can't see that someone has 
self-censored. It just happens that the Dalai Lama isn't 
mentioned and the Tiananmen massacre isn't mentioned and so on.
    On the question of the Hanban and the teachers, the Hanban 
is presented as part of the Ministry of Education. That is 
false. It is from the State Council. It is from the Communist 
Party. It is a political program. For those of you who don't 
know Chinese, Hanban is the name of the office that sponsors 
the Confucius Institutes and much of this whole global-reach, 
soft-power project.
    The point I would like to make about the teachers in the 
Hanban is that they are trained to represent the Communist 
Party when they come abroad and do, so that even in informal 
contexts when they come to Texas or California or wherever it 
is, they are--they feel they need to be ``patriotic,'' which 
means pro Communist Party.
    But in their defense, they don't necessarily themselves 
feel that way. If they are sent abroad and paid by the Hanban 
in order to be missionaries for the Communist Party of China 
and don't do it correctly, they can be punished when they go 
back to China. So it doesn't follow from the fact that every 
Hanban teacher that comes over is censoring and self-censoring 
that that is really what is inside them. I think this point we 
always have to bear in mind--real Chinese people, they are like 
Dr. Xia--they are real Chinese people, and they have values 
that aren't that different from our values. Those universal 
values, I am sorry, is not a myth. It is a true thing.
    On the question of the student subsidies that you raised--
the access, who gets to go to Shanghai satellite campuses or 
other campuses--you are quite right to suspect--this is very 
complex if you go into the statistics of it--but right to 
suspect that the privileged ones get the best access.
    I loved Dr. Xia's point a moment ago when he pointed out 
how much money the Hanban spends all around the world and 
neglects the poor children in the rural areas in their own 
country. This morning, my friend Renee Xia, who is here today--
and I talked with Chen Guangcheng, the lawyer, we went to visit 
him--and that was his point. He knew I was coming to this 
hearing, and he said, ``You have to make it clear that ordinary 
people in China suffer, and they are not part of this. This is 
part of a Communist Party elite who is running this program.'' 
And we mustn't forget that.
    I, of course, can't go to China, so I haven't been to the 
NYU campus. But I will comment that I have a friend who is 
there--I won't name him because I don't want to do it without 
his permission--an American scholar. And it answers your 
question, Mr. Chairman, about whether those rules about ``you 
must be Marxist and the seven noes and so on'' apply to 
American teachers who are there. It doesn't to him. He writes 
me emails about how much friction he goes through trying to 
defend liberal expression in a context where it goes against 
the grain to do that.
    So I think it is a messy answer to the question there. It 
is contentious and, of course, should be contentious, so I 
salute my friend there.
    Mr. Cushman. I can't speak to the role of Hanban, in 
particular, on those kinds of issues.
    I would say that, as many people might know from my written 
testimony and also from the news, I was part of an effort at 
Wellesley College to speak on behalf of and to help protect 
Professor Xia after he was fired. And we drafted a letter--it 
was me and six other faculty members--that was signed by over 
140 faculty members, which I would like to take the occasion 
publicly in this chamber to thank them for doing that, because 
they didn't have to do that. And it was a very important thing 
to have done. And it did get attention from other people at 
other universities, who wrote and said that we would like to do 
similar kinds of things.
    So what I think is that all efforts to combat what I would 
consider to be the most troubling aspect, when American 
universities or colleges start looking like Chinese 
universities and colleges in terms of what you can speak about, 
it is an effort of resistance and that professors from places 
that have satellite campuses, professors that have partnerships 
of the kind that I was talking about that were forged by MUOs 
that we don't really know much about, there has to be some 
collective action at that level in terms of pushing back on 
their own administrations.
    And the problem is with many of these smaller-scale 
partnerships, which I think are obviously more ubiquitous than 
the satellite campuses, is that they are very often, in almost 
all cases, forged by the administrations of the universities or 
colleges and then just announced to the faculty. And so the 
issues of faculty governance and whether faculty actually 
control these are coming up, and that seems to me to be 
something really important to try to effect.
    But I would stress, given that people are following the 
money, given that there is a very distinct political economy of 
knowledge going on here that is all driven by politics and 
money, especially at public institutions, which need more money 
for programs that have been cut, these kind of efforts, these 
resistant efforts, whether it be teaching new kinds of courses 
or bringing in dissidents, you are going against the tide, as 
it were.
    Mr. Smith. I don't know what your time is, and I do hope 
you can save it. We will have to take about a 15-minute recess. 
There are three votes on the floor. The one vote is almost out 
of time, then we have a 5-minute and then another 5-minute.
    So we will reconvene, and I hope you can stay. But I do 
thank you for your patience.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting. And, 
again, I apologize for the delay. Dr. Xia, I think you were 
next up, and look forward to your answers.
    Mr. Xia. I would like to mention a few cases in China 
nowadays.
    Some of the university professors when they talked about 
constitutions and rule of law and freedom, human rights, and 
then they were removed from their teaching positions, like 
Zhang Xuezhong in Shanghai and Chen Hongguo in Xi'an. They are 
both law professors, and they have been removed. And, 
eventually, Chen Hongguo quit his job. He knows there is no way 
to continue his teaching.
    And also, nowadays, Liu Yunshan, one of the seven top 
leaders who is in charge of the ideological control and 
propaganda, and he gave the instructions that the ``Chinese 
dream'' should be infused into the teaching and classroom and 
the brains and minds of students. So it is a demand. It is 
compulsory. No one will be an exception.
    So, in China, all the arts and literature and all those 
show business was under control of the propaganda department of 
CCP, so, like, movies, dramas, opera, music, and cartoons even. 
I know that some of the cartoon painters has been arrested only 
because they made some cartoons to criticize the Communist 
Party.
    So, I mean, the situation is getting much worse than ever 
before just after the 2 years that Xi Jinping became the 
President.
    And also I found there is, in some of the best universities 
in U.S., there is a kind of phenomenon. I don't have very 
direct evidence, but I can sense it. I mean, some professors 
and administrators, they visit China and they get special 
treatments like an honored guest, some privilege. Then, in 
return, they might accept the corrupt officials' children to be 
the graduate students in those best universities.
    Of course, those students have met the criteria, but still 
there is some room to do something extra. I mean, maybe among 
10 excellent students, they will pick up someone that has a 
direct relationship with the corrupt officials. They know that 
is much more beneficial than acceptance of the ordinary people.
    So this kind of case, I would say, in the way that the 
American administrators and the professors, they are halfways 
the dictatorship, in some way, because they make a lot of their 
compromise when dealing with those Chinese authorities, either 
in universities and other institutions. That is my impression. 
And especially for those east Asian studies departments and 
institutes, they might be lacking of their funding support, and 
they need to have more visits and cooperative research with 
Chinese regime, so they might have that kind of a compromise.
    One case is, you know, the RAND Corporation, some senior 
researchers, they had a very close relationship with the 
administrator in Central Party School, the vice president. And 
he visit China for 20 times, and each time was arranged by this 
guy. Anyplace he visited, it would be arranged beforehand. So 
he got the impression that the Chinese regime became very 
successful both in economic performance and in the whole life. 
So I think that that senior researcher got it wrong, because he 
just believe in that kind of thing through this official 
arrangement.
    So that is my suspects on the effectiveness of a 
cooperation and academic research between U.S. and China. Thank 
you.
    Mr. Smith. Thank you, Dr. Xia.
    Dr. Richardson.
    Ms. Richardson. I will just add a couple of very quick 
points.
    To the issue of which rules will really prevail on 
satellite campuses, I think most Western universities will 
say--and in other instances, for example, in the Middle East or 
with respect to Yale's campus in Singapore, for example, 
university officials have said, the same rules will prevail as 
prevail on home campuses. And I think in principle that is 
lovely to imagine will be the case. I think much depends on how 
that actually gets tested and how the universities behave when, 
for example, you know, somebody on a Western university's 
campus inside China wants to have a symposium about Tibet or 
Xinjiang or one of the issues we can reasonably expect will be 
controversial.
    And, you know, one assumes that that is some of 
universities' worst nightmares, but they can't possibly imagine 
that is not going to happen, right? And whether they are 
actually really prepared to deal with that in a breach is not 
clear to us yet.
    On the issue of positive consequences that this debate has 
generated, I actually think that, especially the discussion 
about Confucius Institutes and their presence in universities 
and secondary schools in the U.S. actually has the potential to 
be a very helpful catalyst about a broader discussion about 
human rights abuses in China and Chinese Government standards, 
I think in the same way that, for example, you know, tainted 
products coming from China mobilizes public opinion here in a 
way that discussions, for better or for worse, about individual 
cases, for example, or problematic Chinese Government policies 
doesn't.
    You know, I do think that if one of the net results of 
these debates is that there is more money, particularly for 
language programs and for research in a variety of fields, that 
is a positive outcome, as is the presence of lots of academics 
and students from China in the U.S. I think that is a very 
positive consequence.
    Mr. Smith. Thank you.
    You know, I have been in Congress 34 years, and I remember 
in my second term a terrible human rights abuse became known 
through the work of a guy named Steven Mosher, and that is the 
one-child, forced-abortion policy. And he was taken very 
credibly, as he should have been. ``60 Minutes'' and 
``Frontline'' did a tremendous expose largely built on his 
work. The Washington Post carried a three-part incisive article 
by Michael Weisskopf, who was the Beijing bureau chief, and I 
know Mosher, was one of his sources. He had many, but he was 
one. And yet Stanford denied him his attempt to become a 
doctor.
    And the Wall Street Journal, if I remember correctly, did a 
piece called ``Stanford Morality'' and called on Stanford to 
revisit their concern about access to China when a human rights 
abuse has been reported.
    So it is a longstanding problem--the reason for mentioning 
this--but it seems it has gotten exponentially worse in the 
last 10 years, with the Confucius Institutes and now with more 
and more of our universities setting up satellite campuses in 
China.
    Is it all about money? I mean, it is hard to understand. 
You know, we all want to get closer to the Chinese people, but 
when this is all about a dictatorship that is adversarial in 
the extreme toward its own people, woe to us if we are enabling 
that dictatorship through this means.
    I thought your statement, Dr. Cushman, about how the last 
to know are the professors, that the administrators are the 
ones who bring this about--and I know many college presidents, 
they are always in the hunt for money. It is a very, very 
difficult job that they have, and they do need to find sources, 
but not all sources are licit or ethical.
    So maybe you could speak to that a bit. And maybe drill 
down a little bit more about what Hanban is. You know, for most 
people, that is a word they have never heard before.
    One of the things we do in this subcommittee is that it is 
all about follow-up and action plans that come out of our 
hearings. As I mentioned, we are already looking at a GAO study 
so your recommendations on what we ought to ask the GAO to look 
for, if you could get it officially for the record or just get 
it to us, we would deeply appreciate that so we get it right on 
what we are asking. You are the experts.
    And, Dr. Xia, if you could just tell us a little bit what 
it was like going through your travail. Again, thank you, Dr. 
Cushman, for rallying to his defense so effectively, and your 
fellow professors. But what was that like?
    And then maybe get to those other issues, as well, if you 
would.
    Mr. Xia. While I was teaching in Peking University, for 
more than 13 years, only in recent 2 years, 3 years, I found 
some students, they actually reported what I have said in the 
classroom to the authorities. They think there are some 
offensive words that go against the party and the socialism. So 
the authority would think that that would not be accepted since 
you are teaching university.
    All universities in China are all state-owned. It is not 
private. Even the private universities, actually, they don't 
have the qualified teachers or sufficient resources to provide 
qualified education. So in Peking University and Tsinghua and 
all those universities, you have to obey the CCP's rules.
    So people, nowadays, call all the universities in China as 
the party schools. They are all party schools. So they should 
be obey the doctrines. Actually, there is no academic freedom. 
If you say capitalism is might be a good institution, at least 
in the sense of the research, and people say, no, politically 
you are not right, so you cannot do that research.
    So I know the funding for all humanities and social 
sciences in China, it all comes from one organization. This 
organization called the National Planning Committee for 
Humanities and Social Sciences. It is under the direct 
leadership of the propaganda department of the CCP. Actually, 
the office is located in the department of propaganda of the 
CCP. So that means they are ideologically controlled by CCP. 
There is no freedom at all to have the academic research.
    And so when they have the cooperation with Western 
scholars, there are also some requirements that says any 
research that violates the socialist rules and cannot be 
accepted and cannot be published in China. So they have some 
warnings to American professors, better not to touch this kind 
of issue, like Tibet and so on and so forth. Otherwise, this 
kind of research cannot get funding.
    That is the basic situation.
    Mr. Smith. Thank you.
    Mr. Xia. Thank you.
    Mr. Smith. If nobody else wants to respond, just a couple 
of other final questions and anything else you would like to 
say as we conclude.
    At that 2006 hearing that I had with Google, Microsoft, 
Cisco, and Yahoo, we actually put up on a large board the 
Google search engine for China. And we typed in a whole lot of 
things, from ``Tibet'' to the ``Dalai Lama,'' especially 
``Tiananmen Square.'' We got beautiful pictures of Tiananmen 
Square and happy people, but no tanks, no soldiers, no bleeding 
students. And then when you did Google, the search engine that 
was available here in the United States, it was millions of 
hits of what truly happened during those momentous times when 
so many people sacrificed for democracy and freedom.
    What happens on the campuses, like on Tiananmen? What would 
NYU-Shanghai or any of these in China, these satellites, if 
somebody says, what happened in Tiananmen Square, what does a 
professor do? If he is videotaped, is he self-censoring so he 
is not pulled off and taken by the secret police? I mean, what 
happens on a day-to-day basis? Because students will always 
have inquiring minds. At least I hope they will.
    What happens?
    Mr. Link. Students, yes, have inquiring minds. And people 
in China who want to jump over the great firewall and get 
access can usually do that by using VPNs. It takes work, and 
you have to play cat-and-mouse with the censors. The problem is 
that most people are either afraid to do that or don't have the 
time to do that or just don't think of doing that, so we have, 
as you correctly point out, this huge inequality of what is 
available inside China and what is available outside.
    I would like to expand a little bit, based on a 
conversation we had during the break, about this access 
inequality problem. Chinese students and scholars, including 
representatives of the Communist Party of China, come to our 
free society and look at our Googles and our libraries and our 
free expression and have full access to that, whereas Americans 
who go to China, along with all the Chinese people, have to 
jump over these firewalls and figure out how to get what they 
ought to have had without that struggle.
    I want to put this in the context of the problem of 
censoring books. It has become a controversy in my field of 
China studies recently whether you should accept censorship of 
your book about China in order to get it translated and 
published inside China. Some people say, yes, I will accept the 
censorship because the larger good is that the rest of the book 
itself gets through to Chinese readers. And some people say, 
no, censorship is wrong, and even if it means my book won't get 
over to the Chinese readers, I am, on principle, not going to 
do it.
    I respect people on both sides of that divide. It is a 
tough dilemma. But the point is that, at bottom, that is also 
an access problem. If you think about it, what the Chinese 
Communist Party is saying to the American scholars is, yes, you 
can have access to our people to read your book, but the price 
you pay is that you have to censor what we don't like. So it is 
fundamentally an access problem.
    And I just wonder--I am not a politician--but I wonder if 
our Government couldn't do something to say that access has to 
be fair on both sides. If you can have full access to our 
society, our scholars, our Voice of America, our Radio Free 
Asia, and so on, we have to have full access to yours. They 
won't like that, of course, but that is in principle a good 
argument to have to make.
    The final comment I would like to make is about our 
chairman's observation that in his 34 years of service things 
have gotten demonstrably worse. I think that is a direct quote, 
but something like that. You are right; it is demonstrably 
worse. And in the last 2 years, it is seriously demonstrably 
worse.
    I worry that our society has what I would call a ``warning 
fatigue'' about China, because people like Sophie Richardson 
and Chairman Smith and me and so on have been harping on human 
rights for 2 decades, and the society might nod their heads, 
``Yeah, yeah, it is them again, they are doing their thing 
again,'' and we are doing our thing again. But somehow we have 
to get the point across that in these last 2 years it is 
worse--seriously worse, threateningly worse.
    And I will stop there. Thanks.
    Mr. Cushman. I would just reiterate the asymmetry problem, 
the problem in the soft power strategy of China has an open 
society to work in and we have a closed society to work in. 
And, you know, the more general problem of open societies is 
that they have to allow criticisms of themselves, whereas 
closed societies don't have to allow any of that and they 
don't.
    I did want to say something about the issue of revenue and 
money, because you are absolutely right. Any college president 
or provost or someone in charge has to worry about money and 
sources of money. But my argument has only ever been that, yes, 
that would be your job. If I were a college president, I would 
want to maximize the return to my university or my college. But 
you have to do both. You have to also protect the free space 
from infringements, subtle and not so subtle.
    The subtle ones are more a concern to me, these small acts 
of self-censorship that continually add up into something much 
greater. And I am concerned, in terms of ``demonstrably 
worse,'' what I am concerned about is if our institutions in 
the United States become more similar to their counterparts in 
China with regard to what we can talk about not just in China 
but about a whole range of issues.
    I would point out that a colleague of mine, who has 
actually testified in a hearing before on other issues, 
particularly related to Tiananmen, who has just published a 
book on Tiananmen, has had to suffer extreme abuse mostly from, 
kind of, cyber bullying attacks from all over the place about 
her views and, you know, personal abuse and ad hominem attacks 
by orchestrated, kind of, campaigns to criticize her for 
writing an honest and truthful book about Tiananmen, in which 
her whole life has been involved in doing.
    And this is to be expected in these kinds of cyber attacks 
that have no origin and you don't know where they are coming 
from, and they appear to be Chinese people that are attacking 
her for being anti-China or agents of America or whatever. But 
lately what has concerned me is when people present critical or 
provocative perspectives on China and are actually attacked by 
their colleagues, who are not necessarily of Chinese origin or 
have Chinese interests, for being too negative about China or 
not stressing the positive aspects of China.
    And when American or, in this case--this talk that I am 
referring to took place in Europe--when a European professor, 
you know, really launches an assault on a professor who is 
telling the truth about China, that starts to worry me. That is 
only one case, obviously, but I believe that what I am worried 
about is that that might get worse, that people like us, 
dissidents or people like Professor Link who speak out, or Dr. 
Richardson, will be objects of attack for stressing the 
negative aspects of China and in some ways kind of raining on 
the parade, as it were, raining on the soft power parade, if I 
might be indulged with that one.
    Ms. Richardson. I think the only point I will add to this 
at the moment--it seems appropriate when we are talking about 
academic freedom in China. For anybody who is harboring any 
illusions about how much space there is on Chinese campuses, I 
think we would do well to remember not only Ilham Tohti, who 
has been given a life sentence for essentially trying to have a 
vigorous, critical conversation in his classrooms about inter-
ethnic dialogue, but whose students are being prosecuted, as 
well. And it is not clear what the outcome for them will be.
    But I think that is a pretty sobering reminder of what you 
can and can't say in a classroom in the mainland.
    Mr. Smith. Dr. Richardson, has the Obama administration 
shown an interest in pushing back?
    You and I have talked many times. I mean, we had a hearing, 
I will say to our other distinguished colleagues, friends, 
witnesses, where we had five daughters, all of whose dads were 
being held, including the daughter of Gao Zhisheng. And when we 
tried to get a meeting with President Obama with the five 
daughters, we were told he didn't have the time. He might not 
agree with the strategy on how do you promote human rights, but 
not to meet with five daughters that want to say, ``Please 
intervene on behalf of our dads who are being tortured.''
    I raise this because there has been a tone-deafness on so 
many of these issues, and I wondering if we are running into 
the same thing here, that somehow some good will come out of 
this, when I think it is a gross enabling of bad behaviors and 
dictatorship. And as I think several of you have said--you have 
said it, Dr. Link--you know, Xi Jinping in the last 2 years is 
truly projecting power.
    I have had hearings here--because I host part of this 
subcommittee, the first name of it is ``Africa, Global Health, 
Global Human Rights''--on the undue influence, the pernicious 
influence that China is having on African governments--the bad 
governance model. And they are very close, obviously, to people 
like Bashir and Mugabe and others. And yet they are starting 
these institutes in Africa, as well.
    Are they concerned about it?
    Ms. Richardson. What is the best way to answer this 
question? The President----
    Mr. Smith. As always, truthfully. As you do. As you do.
    Ms. Richardson. I am just trying to find out how blunt to 
be.
    The President did speak publicly at a somewhat abstract 
level. There were some specifics about Hong Kong, for example, 
when he was in Beijing. It is our understanding that a more 
specific discussion was had behind closed doors.
    I think the administration is to be commended for the real 
surround-sound response when Professor Tohti's sentence was 
announced. There was a White House statement, there was a State 
Department statement, the President spoke, Secretary Kerry 
spoke.
    But we were very disappointed that not only did the 
President not follow through on the recommendation that we and 
eight other organizations made to call publicly for the release 
of five specific people, including Liu Xiaobo and Liu Xia, but 
also the President gave an interview to Xinhua, and there is 
some language in that interview, particularly about ETIM and 
about terrorism issues, that we find extremely problematic. 
Because the way it is formulated, I think, very much plays into 
a Chinese Government narrative about terrorism and about 
Xinjiang.
    And, you know, I don't mean to suggest that there aren't 
people committing unconscionable acts of violence in Xinjiang. 
That is clearly happening. I think it is absolutely incumbent 
on the administration to make a very clear difference between 
what it knows about specific groups of people who are 
committing or who are contemplating committing acts of 
terrorism and the population as a whole.
    You know, the latter part of the equation about the 
relationship between human rights denials and violence or 
terrorism did get made but, again, in a very abstracted fashion 
that in no way called the Chinese Government onto the carpet 
for its abuses in Xinjiang. And I think that is extremely 
problematic, especially given the priority that the Chinese 
Government is now placing on terrorism and counterterrorism 
cooperation with other governments.
    So that is a long answer. But, you know, the administration 
has occasionally been vocal at senior-most levels on specific 
cases. It has been much less frequent----
    Mr. Smith. Have they shown a concern about the Confucius 
Institutes and the satellites as to what this really is all 
about?
    Ms. Richardson. You know, I am going to come back to you on 
that because I haven't looked nearly as clearly as I should 
have on U.S. Government responses to these issues. I certainly 
know it is of concern to people.
    And I do want to note that there are many people at the 
working level in the State Department who are pretty ferocious 
defenders of human rights----
    Mr. Smith. Right.
    Ms. Richardson [continuing]. And who----
    Mr. Smith. Well, you know, Dr. Perry made an excellent 
recommendation about the visas, withholding visas.
    In the year 2000, I got a bill passed, the Admiral James W. 
Nance and Meg Donovan Foreign Relations Authorization Act. One 
of those provisions has a visa ban for anybody who is complicit 
in coercive population control and these abuses against women. 
Less than 30 people have been singled out, and there has been 
no effort. We get no good answers as to why.
    I am all for visas and, matter of fact, correspondingly, or 
similarly, I wrote the law called the Belarus Democracy Act. 
Because it is a lot easier for us to criticize Belarus, 
Lukashenka, there are 200 people on that list, or more, and 
less than 30 that have been so sanctioned in China.
    I think your idea is excellent, Dr. Link, so we will pursue 
that.
    All your ideas are great, and we will, you know, merge them 
in and merge/purge and go forward with them. So thank you.
    Anybody else want to add anything before we close?
    You have been great with your time, even greater with your 
expertise and insights and your leadership.
    You know, in Proverbs 22:1, it says, ``A good name is more 
desirable than great riches.'' I would hope that our 
universities and colleges who enjoy tremendous names and earned 
prestige would look at what they are doing in terms of enabling 
dictatorship, look at the terms and conditions as never before, 
and, like the University of Chicago and perhaps some others, 
will sever a relationship that not only enables bad behaviors 
but also preserves their brand and their good name.
    And we will reinvite, as we have done 16 times, NYU to be 
at this witness table. And this is the first of what will be 
about a half-dozen hearings going into next year. So you have 
kicked off I think a very important set of scrutiny and focus 
probe. Thank you so very, very much.
    Mr. Xia. Can I just say 1 minute?
    Mr. Smith. Dr. Xia?
    Mr. Xia. I notice one phenomenon is that every year 
hundreds of English books, including some textbooks, have been 
translated into Chinese and published in China. But, among 
them, majority of the books has been deleted a lot. For any 
contents the authority might not like, there are deletes.
    So this kind of thing is a violation of the academic 
freedom. And also it is kind of cheating and frauding, because 
the Chinese readers, they don't know which part has been 
deleted.
    Giving one example, it is a very famous book. It is called 
``The History of Modern China.'' It is written by Xuejun Yeu, a 
scholar, American professor, basically come from China, but he 
lived in U.S. for many years, and now he died. This book has 
been deleted one-third of the parts of the contents. And the 
whole version published in Hong Kong, but in China the version 
is only two-thirds left. So something like that.
    I mean, I would like to have the U.S. institutions of 
higher education to have this in mind. Any publications that 
will be translated in China, they must pay much more attention 
on that, whether it is important the contents would be deleted 
or not.
    Thank you.
    Mr. Smith. Thank you, Dr. Xia.
    The hearing is now adjourned.
    [Whereupon, at 3:09 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record

               
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>
</pre></body></html>
